OFFICE OF THE ATTORNEY GENERAL

| DEPARTMENT OF LEGAL AFFAIRS

THE CAPITOL, PL-01
TALLAHASSEE, FLORIDA 32399-1050

 

Ashley Moody
Attorney General
State of Florida

 

August 19, 2020

The Honorable Scott S. Harris,
Clerk of Court

Supreme Court of the United States
One First Street N.E.

Washington D.C. 20543-0001

VIA ELECTRONIC DELIVERY

Re: Sparre v. State of Florida,
Case No. 20-5217 - Capital Case

Dear Mr. Harris:

Respondent, the State of Florida, requests a 30-day extension of time to file its Brief in
Opposition to the petition. Sup. Ct. R. 30.4. The extension is requested due to the case
load of the attorney assigned to the case and not for any purpose of delay. Opposing
counsel, Assistant Capital Collateral Regional Counsel-North Stacey Biggart, has been
contacted via email and has no objection to this extension. Therefore, Respondent
requests until Wednesday, September 30, 2020, to complete the brief in opposition.

Sincerely,

 
     

arolyn M-Snurkowski,
Deputy Attorney General
Counsel of Record
OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050
Telephone: (850) 414-3300
carolyn.snurkowski@myfloridalegal.com

Copies mailed to Assistant Capital Collateral Regional Counsel-North Stacey Biggart, 1004 DeSoto Park Drive,
Tallahassee, FL 32301, this 19% day of August.
